July 24, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Nevada Improperly Claimed Federal Reimbursement for Medicare Part B
                Premiums Paid on Behalf of Medicaid Beneficiaries (A-09-11-02024)


Attached, for your information, is an advance copy of our final report on Nevada’s claims for
Federal reimbursement for Medicare Part B premiums that it paid on behalf of Medicaid
beneficiaries under the buy-in program. We will issue this report to the Nevada Department of
Health and Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-11-02024.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103
July 25, 2012

Report Number: A-09-11-02024

Mr. Michael J. Willden
Director
Nevada Department of Health and Human Services
4126 Technology Way, Suite 100
Carson City, NV 89706

Dear Mr. Willden:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Nevada Improperly Claimed Federal Reimbursement for
Medicare Part B Premiums Paid on Behalf of Medicaid Beneficiaries. We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-02024 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael J. Willden


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 NEVADA IMPROPERLY CLAIMED
  FEDERAL REIMBURSEMENT
    FOR MEDICARE PART B
 PREMIUMS PAID ON BEHALF OF
   MEDICAID BENEFICIARIES




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-09-11-02024
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Section 1843 of the Social Security Act allows State Medicaid programs to enter into an
arrangement with the Centers for Medicare & Medicaid Services (CMS) known as the buy-in
program. The buy-in program allows a participating State Medicaid program to enroll certain
dual eligibles (individuals who are entitled to both Medicare and some form of Medicaid
benefits) in the Medicare Part B program (Part B) and to pay the monthly premiums on their
behalf. The State may then claim the monthly premium expenditures for Federal reimbursement.

The Social Security Administration (SSA) notifies CMS of individuals’ eligibility for the buy-in
program when those individuals apply for Medicare and also appear to be eligible for Medicaid.
CMS adds the individuals to the appropriate State’s buy-in program (called public welfare
additions in this report). According to sections 480 and 482 of CMS’s State Buy-In Manual,
Pub. No. 24, each State is responsible for (1) coordinating with SSA and CMS regional offices to
establish procedures to reduce the number of erroneous public welfare additions, (2) verifying
the validity of public welfare additions, and (3) taking corrective action on erroneous public
welfare additions. When a State determines that an individual already enrolled in the buy-in
program is ineligible, it may submit to CMS a deletion request to remove the individual from the
buy-in program retroactively.

States claim Medicaid expenditures and the associated Federal share on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program. According
to section 2500.A.1 of CMS’s State Medicaid Manual, Pub. No. 45, the expenditures reported on
the Form CMS-64 and its attachments must represent actual expenditures for which all
supporting documentation, in readily reviewable form, has been compiled and is available at the
time the claim is filed. In addition, 42 CFR §§ 433.32(a) and (b) require that the State maintain
an accounting system and retain supporting records to ensure that claims for Federal funds are in
accordance with applicable Federal requirements.

In Nevada, the Department of Health and Human Services (State agency) administers the
Medicaid program, including the State’s buy-in program. In addition to carrying out its
responsibilities related to public welfare additions, the State agency is responsible for enrolling
certain dual eligibles in the buy-in program (called State additions in this report) and paying the
monthly Part B premiums on their behalf. Those responsibilities include establishing internal
procedures and systems to identify individuals eligible for the buy-in program and
communicating this information to CMS. The State agency is also responsible for the accuracy
of the individuals’ eligibility information.

For the quarters ended December 31, 2007, through September 30, 2009, we reviewed
approximately $74.0 million ($45.3 million Federal share) that the State agency claimed on the
Form CMS-64 for Part B premiums paid under the buy-in program. This amount included
premiums paid for both public welfare and State additions.




                                                  i
OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements
when claiming Federal reimbursement for Part B premiums that it paid on behalf of Medicaid
beneficiaries.

SUMMARY OF FINDINGS

The State agency did not always comply with Federal requirements when claiming Federal
reimbursement for Part B premiums that it paid on behalf of Medicaid beneficiaries.
Specifically, the State agency improperly claimed $194,891 (Federal share):

   •   The State agency improperly claimed $179,096, which represented the Federal share of
       $336,005 in Part B premiums paid for ineligible individuals. The State agency did not
       delete ineligible individuals from the buy-in program when it determined that they were
       ineligible or refund the Federal share of the Part B premiums that it claimed for ineligible
       individuals.

   •   For $903,161 in Part B premiums that the State agency claimed for public welfare
       additions, we judgmentally selected 18 of these additions and determined that the State
       agency improperly claimed $24,898 ($15,795 Federal share) for 7 individuals who had
       been erroneously added. The State agency did not verify the eligibility of individuals
       added through the public welfare addition procedure or take corrective action on
       erroneous public welfare additions. In addition, the State agency did not coordinate with
       SSA or CMS regional offices to establish procedures to reduce the number of erroneous
       public welfare additions. Because our judgmental selection identified unallowable claims
       for erroneous additions, some of the remaining claims likely are unallowable. Therefore,
       we have set aside $878,263 for resolution by CMS and the State agency.

For approximately $72.8 million of the Part B premiums claimed on the Form CMS-64, the State
agency did not have adequate supporting documentation. The State agency could not provide
documentation to support that the Part B premiums claimed were for eligible individuals and
could not identify the Federal share claimed for those premiums. For this reason, we could not
determine whether the State agency’s claims were allowable. Therefore, we have set aside
approximately $72.8 million for resolution by CMS and the State agency.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $194,891 (Federal share) for unallowable Part B
       premiums claimed,

   •   work with CMS to determine whether any portion of the $878,263 in Part B premiums
       claimed for public welfare additions was unallowable and refund the Federal share of any
       unallowable amount claimed,



                                                ii
   •   work with CMS to determine the allowability of the approximately $72.8 million in
       Part B premiums for which the State agency did not have adequate supporting
       documentation and refund the Federal share of any unallowable amount claimed,

   •   delete ineligible individuals from the buy-in program when it determines that they are
       ineligible and refund the Federal share of the Part B premiums claimed for those
       individuals,

   •   verify the eligibility of individuals added to the buy-in program through the public
       welfare addition procedure and take corrective action on erroneous public welfare
       additions,

   •   coordinate with SSA and CMS regional offices to establish procedures to reduce the
       number of erroneous public welfare additions, and

   •   ensure that it can support the Federal share claimed for each Part B premium.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken or
planned to take to address our findings and recommendations. Regarding the third
recommendation, the State agency did not concur with the language in the finding related to
inadequate support for Part B premiums. The State agency requested that we modify this
language to exclude the dollar amount of $72.8 million and focus on the need for the State
agency and CMS to perform the reconciliation for the period reviewed. The State agency said
that our report does not discuss why electronic billing files could not be acquired from CMS for
the quarters ended December 31, 2007, and March 31, 2008. The State agency added that
without this documentation from its responsible division or from CMS, our methodology could
not be completed for two of the eight quarters reviewed.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the finding related to the third recommendation, reporting the $72.8 million is
necessary to identify the unsupported amount that CMS and the State agency should work to
resolve. Pursuant to Federal regulations and CMS guidance, the State agency is responsible for
maintaining sufficient documentation to support its claim, regardless of the availability of Part B
premium billing data from CMS. Nothing in the State agency’s comments caused us to revise
our finding or the related recommendation.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Quarterly Medicaid Statement of Expenditures for the
                 Medical Assistance Program..........................................................................1
              Medicaid’s Role in Paying Medicare Part B Premiums
                 in the Buy-In Program ...................................................................................2
              Administration of the Buy-In Program ................................................................2
              Nevada’s Buy-In Program ...................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................5

          MISSED DELETIONS OF INELIGIBLE INDIVIDUALS ...........................................5
               Federal Requirements ..........................................................................................5
               Unallowable Claims for Missed Deletions ..........................................................6

          ERRONEOUS PUBLIC WELFARE ADDITIONS OF INELIGIBLE
             INDIVIDUALS ........................................................................................................6
               Federal Requirements ..........................................................................................6
               Unallowable and Set-Aside Claims for Public Welfare Additions ......................7

          INADEQUATE DOCUMENTATION TO SUPPORT PART B PREMIUMS ..............7
               Federal Requirements ..........................................................................................7
               Unsupported Claims on the Form CMS-64 .........................................................8

          RECOMMENDATIONS .................................................................................................8

          STATE AGENCY COMMENTS ....................................................................................9

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................9

OTHER MATTER: MISSED STATE ADDITIONS OF ELIGIBLE
 INDIVIDUALS ........................................................................................................................10

APPENDIX




                                                                    iv
STATE AGENCY COMMENTS




                        v
                                                     INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nevada, the Department of Health and Human
Services (State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAPs cannot be lower than 50 percent. Although FMAPs are adjusted annually for economic
changes in the States, Congress may increase FMAPs at any time.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, enacted
February 17, 2009, authorized the States to receive higher FMAPs. The FMAPs for Nevada’s
Medicaid expenditures for fiscal years 2008 and 2009 were 52.64 percent and 63.93 percent,
respectively. 1

Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program

States claim Medicaid expenditures and the associated Federal share on the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program. The Form
CMS-64 is an accounting statement that the State, in accordance with 42 CFR § 430.30(c), must
submit to CMS within 30 days after the end of each quarter. Each quarter’s Form CMS-64
shows the disposition of Medicaid funds used to pay for medical and administrative expenditures
for the quarter being reported, as well as any prior-period adjustments.

According to section 2500.A.1 of CMS’s State Medicaid Manual (Medicaid Manual),
Pub. No. 45, the expenditures reported on the Form CMS-64 and its attachments must represent
actual expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and is available at the time the claim is filed. In addition, 42 CFR §§ 433.32(a) and (b)
require that the State maintain an accounting system and retain supporting records to ensure that
claims for Federal funds are in accordance with applicable Federal requirements.


1
    Pursuant to section 1933(d) of the Act, the FMAP is equal to 100 percent for certain individuals.


                                                            1
Medicaid’s Role in Paying Medicare Part B Premiums in the Buy-In Program

Section 1843 of the Act allows State Medicaid programs to enter into an arrangement with CMS
known as the buy-in program. The buy-in program allows a participating State Medicaid
program to enroll certain dual eligibles (individuals who are entitled to both Medicare and some
form of Medicaid benefits) in the Medicare Part B program (Part B) and to pay the monthly
premiums on their behalf. The State may then claim the monthly premium expenditures for
Federal reimbursement at the applicable FMAP. The buy-in program has the effect of
transferring part of the medical costs for eligible individuals from the federally and State-funded
Medicaid program to the federally funded Medicare program.

Administration of the Buy-In Program

At the Federal level, CMS has overall responsibility for administering the buy-in program. CMS
maintains a master file that contains information on individuals eligible for enrollment in the
buy-in program. CMS uses updates provided by the States to amend the buy-in master file.
CMS uses the buy-in master file to prepare monthly billing notices known as Summary
Accounting Statements (billing notices) for each State’s Part B premium liability and to identify
those premiums eligible to be claimed by each State for Federal reimbursement. In addition to
sending billing notices to the States, CMS sends electronic billing files that list by individual the
Part B premiums.

The Social Security Administration (SSA) notifies CMS of individuals’ eligibility for the buy-in
program when those individuals apply for Medicare and also appear to be eligible for Medicaid.
CMS adds the individuals to the appropriate State’s buy-in program (called public welfare
additions in this report). According to sections 480 and 482 of CMS’s State Buy-In Manual
(Buy-In Manual), Pub. No. 24, each State is responsible for (1) coordinating with SSA and CMS
regional offices to establish procedures to reduce the number of erroneous public welfare
additions, (2) verifying the validity of public welfare additions, and (3) taking corrective action
on erroneous public welfare additions.

When a State determines that an individual already enrolled in the buy-in program is ineligible,
the State may submit to CMS a deletion request, which results in the retroactive removal of the
individual from the buy-in program. CMS refunds the Part B premiums paid by the State for that
individual through a credit on the billing notice. However, CMS limits the retroactivity of the
deletion date to 2 months from the month in which CMS receives the deletion request. This
limits the amount that CMS will credit to the State to no more than 3 months of Part B premiums
paid by the State.

Nevada’s Buy-In Program

The State agency administers Nevada’s buy-in program. In addition to carrying out its
responsibilities related to public welfare additions, the State agency is responsible for enrolling
certain dual eligibles in the buy-in program and paying the monthly Part B premiums on behalf
of those individuals (called State additions in this report). The State agency’s other
responsibilities include establishing internal procedures and systems to identify individuals
eligible for the buy-in program, communicating this information to CMS, and coordinating with


                                                  2
CMS on individual cases. The State agency is also responsible for the accuracy of the
individuals’ eligibility information and is required to routinely update this information in CMS’s
buy-in master file.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when claiming Federal reimbursement for Part B premiums that it paid on behalf of Medicaid
beneficiaries.

Scope

For the quarters ended December 31, 2007, through September 30, 2009, we reviewed
approximately $74.0 million ($45.3 million Federal share) that the State agency claimed on the
Form CMS-64 for Part B premiums paid under the buy-in program. This amount included
premiums paid for both public welfare and State additions.

Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our review of internal controls to obtaining an understanding of the State
agency’s policies and procedures for identifying and reporting to CMS those individuals eligible
for the buy-in program, recording and paying Part B premiums billed by CMS, and claiming
Federal reimbursement.

We conducted fieldwork at the State agency in Carson City, Nevada.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed applicable portions of the Nevada State Medicaid plan and State agency
        policies and procedures related to the buy-in program;

    •   interviewed CMS and State agency officials;

    •   obtained from CMS and analyzed the electronic billing files of Part B premiums billed to
        the State agency for the months April 2008 through September 2009; 2

    •   compared CMS’s electronic billing files with its billing notices and the State agency’s
        claims for Federal reimbursement on the Form CMS-64;


2
 Neither the State agency nor CMS could provide Part B premium data for the months October 2007 through
March 2008. (See the section entitled “Unsupported Claims on the Form CMS-64.”)


                                                      3
    •   compared CMS’s billing notices for Part B premiums with the State agency’s claims for
        Federal reimbursement on the Form CMS-64 and the State agency’s payment records;

    •   obtained and reviewed the State agency’s reports that listed individuals who were
        ineligible for but not deleted from the buy-in program and

             o   matched the individuals with the premiums billed for those individuals in CMS’s
                 electronic billing files,

             o   calculated the premiums that the State agency paid for those individuals after they
                 had become ineligible,

             o   calculated the premiums that CMS had credited and not credited to the State
                 agency, and

             o   calculated the Federal shares of the State agency claims for the credited and
                 uncredited Part B premiums using the lowest FMAPs applicable for the quarters
                 in which those premiums were claimed; 3 and

    •   from CMS’s electronic billing files, judgmentally selected 30 transactions for additions to
        the buy-in program, including 18 public welfare addition transactions, and

             o   reviewed eligibility records to determine whether the State agency had determined
                 that the 30 individuals were eligible for the entire period of the transaction,

             o   identified the remaining public welfare addition transactions in CMS’s electronic
                 billing files,

             o   reduced the transaction amounts by the deletions related to those transactions, and

             o   calculated the Federal shares of the State agency claims for the monthly Part B
                 premiums using the lowest FMAPs applicable for the quarters in which those
                 premiums were claimed.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




3
 Because the State agency did not have adequate supporting documentation to identify the individual Part B
premiums claimed, we could not determine the individual FMAPs.


                                                        4
                                FINDINGS AND RECOMMENDATIONS

The State agency did not always comply with Federal requirements when claiming Federal
reimbursement for Part B premiums that it paid on behalf of Medicaid beneficiaries.
Specifically, the State agency improperly claimed $194,891 (Federal share):

      •    The State agency improperly claimed $179,096, which represented the Federal share of
           $336,005 in Part B premiums paid for ineligible individuals. The State agency did not
           delete ineligible individuals from the buy-in program when it determined that they were
           ineligible or refund the Federal share of the Part B premiums that it claimed for ineligible
           individuals.

      •    For $903,161 in Part B premiums that the State agency claimed for public welfare
           additions, we judgmentally selected 18 of these additions and determined that the State
           agency improperly claimed $24,898 ($15,795 Federal share) for 7 individuals who had
           been erroneously added. The State agency did not verify the eligibility of individuals
           added through the public welfare addition procedure or take corrective action on
           erroneous public welfare additions. In addition, the State agency did not coordinate with
           SSA or CMS regional offices to establish procedures to reduce the number of erroneous
           public welfare additions. Because our judgmental selection identified unallowable claims
           for erroneous additions, some of the remaining claims likely are unallowable. Therefore,
           we have set aside $878,263 for resolution by CMS and the State agency.

For approximately $72.8 million of the Part B premiums claimed on the Form CMS-64, the State
agency did not have adequate supporting documentation. The State agency could not provide
documentation to support that the Part B premiums claimed were for eligible individuals and
could not identify the Federal share claimed for those premiums. For this reason, we could not
determine whether the State agency’s claims were allowable. Therefore, we have set aside
approximately $72.8 million for resolution by CMS and the State agency.

MISSED DELETIONS OF INELIGIBLE INDIVIDUALS

Federal Requirements

Pursuant to sections 1902(a)(10)(E), 1903(a)(1), and 1905(a) and (p)(3) of the Act and Federal
regulations (42 CFR §§ 431.625(d)(1) and (2)), Federal reimbursement is available only for
Part B premiums paid on behalf of an individual who meets the eligibility requirements for a
Qualified Medicare Beneficiary (QMB), Specified Low-Income Medicare Beneficiary (SLMB),
or Qualifying Individual (QI) 4 or was a recipient or deemed a recipient of money payments
under relevant provisions of the Act. 5


4
    QMBs, SLMBs, and QIs are defined in sections 1902(a)(10)(E) and 1905(p)(1) and (2) of the Act.
5
 The regulations at 42 CFR § 431.625 have not been amended since 1988 and do not mention QMBs, SLMBs, or
QIs. Nevertheless, the Act controls and Federal reimbursement is available for premium payments made on their
behalf.


                                                         5
Section 420 of the Buy-In Manual says: “States are required to submit deletion actions [for
individuals in the buy-in program] within a specified time frame when Medicaid eligibility has
been terminated by the State.”

Section 430 of the Buy-In Manual states:

       When the “buy-in program” was implemented in July 1966 States were allowed to
       delete individuals on a retroactive basis …. As a result, the individual was held
       responsible for the entire premium amount. In effect, a hardship condition was
       placed on the individual …. In 1972, the Commissioner of [SSA] issued a
       regulation to prevent this hardship on the individual. The regulation, commonly
       referred to as the “Commissioner’s Decision”, limits the retroactivity of the
       deletion date to 2 months from the month in which the buy-in system receives the
       deletion request.

Unallowable Claims for Missed Deletions

For the quarters ended June 30, 2008, through September 30, 2009, the State agency claimed
$573,520 in Part B premiums for 1,055 individuals whom the State agency did not delete from
the buy-in program when it determined that they had become ineligible. When the State agency
discovered that these individuals were ineligible, it deleted them from the program retroactively
and received credits from CMS for the Part B premiums paid, totaling $237,515. The State
agency subsequently refunded the Federal share to the Federal Government on the Form
CMS-64 for these premiums. However, CMS did not credit the remaining $336,005 in Part B
premiums because they were beyond the limit CMS set on credits for deletions pursuant to the
SSA Commissioner’s Decision. Contrary to sections 1902(a)(10)(E), 1903(a)(1), and 1905(a)
and (p)(3) of the Act and Federal regulations, the State agency did not refund to the Federal
Government $179,096 (Federal share) that it received for those premiums.

We calculated the Federal shares of the State agency claims for the Part B premiums using the
lowest FMAPs applicable for the quarters in which those premiums were claimed. According to
the State agency, it did not refund the $179,096 (Federal share) because of a lack of
communication between the State agency divisions responsible for processing deletions and
claiming and refunding the Federal share.

ERRONEOUS PUBLIC WELFARE ADDITIONS OF INELIGIBLE INDIVIDUALS

Federal Requirements

Section 480 of the Buy-In Manual states: “The Public Welfare … [addition] procedure is
initiated by [SSA] when an individual files an application for Medicare and appears to be eligible
for Medicaid.” Section 480 also states: “In order to minimize the number of erroneous [public
welfare additions], each State should coordinate with its [CMS] and SSA [regional office] to
establish a [public welfare] verification procedure ….”




                                                6
Section 482 of the Buy-In Manual states:

       If the State determines that a [public welfare addition] … is erroneous, the State
       may protest the action. It must react to the [public welfare addition] before the
       end of the fourth month following the month in which it received notification of
       the [public welfare addition] on its billing file. If the State does not react timely,
       the State becomes responsible for the premium liability until it submits a deletion
       action …. In that situation, the Commissioner’s Decision, which limits the
       retroactivity of deletions to processing month minus two, is applicable and the
       State is liable for all premiums from the month of [addition] through the month of
       deletion.

Unallowable and Set-Aside Claims for Public Welfare Additions

For $903,161 in Part B premiums that the State agency claimed for public welfare additions for
the quarters ended June 30, 2008, through September 30, 2009, we judgmentally selected 18 of
these additions and determined that the State agency improperly claimed $24,898
($15,795 Federal share) for 7 individuals who were not eligible for the buy-in program.
Specifically, the State agency’s eligibility records indicated that these individuals were ineligible
for portions of the periods that the public welfare additions covered. We calculated the Federal
shares of the State agency claims for the unallowable Part B premiums using the lowest FMAPs
applicable for the quarters in which those premiums were claimed. The State agency claimed
these premiums because it did not verify the eligibility of individuals added through the public
welfare addition procedure and take corrective action on erroneous public welfare additions. The
State agency also did not coordinate with SSA or CMS regional offices to establish procedures to
reduce the number of erroneous public welfare additions.

Because our judgmental selection identified unallowable claims for erroneous additions, some of
the remaining claims likely are unallowable. Therefore, we have set aside $878,263 for
resolution by CMS and the State agency.

INADEQUATE DOCUMENTATION TO SUPPORT PART B PREMIUMS

Federal Requirements

Pursuant to 42 CFR §§ 433.32(a) and (b), States are required to “[m]aintain an accounting
system and supporting fiscal records to assure that claims for Federal funds are in accord with
applicable Federal requirements …” and “[r]etain records ….”

According to section 2497.3 of the Medicaid Manual, States “… must have a record-keeping
system which assures that documentation supporting a claim is regularly maintained, easily
retrieved, and in readily reviewable form.” Section 2500.A.1 of the Medicaid Manual states that
amounts reported on the Form CMS-64 “… must be actual expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and is available immediately at
the time the claim is filed.” Section 2500.A.1 also states that “… the amount claimed on the




                                                 7
Form [CMS-64] is a summary of expenditures derived from source documents such as invoices,
cost reports and eligibility records.”

Section 2497.4 of the Medicaid Manual states that when a claim for Federal reimbursement is
filed, “… it must be supported by sufficient documentation to assure that the expenditure was
made on behalf of an eligible recipient ….”

Unsupported Claims on the Form CMS-64

The State agency did not have adequate supporting documentation for approximately
$72.8 million in Part B premiums that it claimed on the Form CMS-64s for the quarters ended
December 31, 2007, through September 30, 2009. The State agency provided only summary
information to support the amounts claimed and could not identify the individual Part B
premiums claimed. Although the summary information supported that the Part B premiums were
paid, this information did not support that the premiums claimed were for eligible individuals. In
addition, the State agency did not retain all documents to support the eligibility of some
individuals for the buy-in program. Specifically, the State agency destroyed many Medicaid
applications that it received before August 2005. According to the State agency, these records
were destroyed after it inadvertently deleted its record retention policies in July 2008 and before
it reinstated those policies in September 2008.

CMS provided us with electronic billing files that included Part B premium data that supported
the $56.2 million that the State agency claimed for the quarters ended June 30, 2008, through
September 30, 2009. However, these files did not support the Federal share claimed for each
Part B premium because the State agency could not identify which FMAP it applied to each
Part B premium.

Because the State agency could not provide adequate supporting documentation, we could not
determine whether the State agency’s claims were allowable. Therefore, we have set aside
approximately $72.8 million for resolution by CMS and the State agency.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $194,891 (Federal share) for unallowable Part B
       premiums claimed,

   •   work with CMS to determine whether any portion of the $878,263 in Part B premiums
       claimed for public welfare additions was unallowable and refund the Federal share of any
       unallowable amount claimed,

   •   work with CMS to determine the allowability of the approximately $72.8 million in
       Part B premiums for which the State agency did not have adequate supporting
       documentation and refund the Federal share of any unallowable amount claimed,




                                                8
   •   delete ineligible individuals from the buy-in program when it determines that they are
       ineligible and refund the Federal share of the Part B premiums claimed for those
       individuals,

   •   verify the eligibility of individuals added to the buy-in program through the public
       welfare addition procedure and take corrective action on erroneous public welfare
       additions,

   •   coordinate with SSA and CMS regional offices to establish procedures to reduce the
       number of erroneous public welfare additions, and

   •   ensure that it can support the Federal share claimed for each Part B premium.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken or
planned to take to address our findings and recommendations. The State agency commented that
it had hired a third-party firm to work on a corrective action plan for (1) the findings related to
the first and second recommendations and (2) the fourth through seventh recommendations. The
State agency said that it would work with CMS to adjust the appropriate quarterly Federal
reports to refund the $194,891 identified in the first recommendation. The State agency also said
it would work with CMS to verify that the $878,263 identified in the second recommendation
does not contain any erroneous public welfare additions and will adjust any subsequent quarterly
Federal reports as directed by CMS.

Regarding the third recommendation, the State agency did not concur with the language in the
finding related to inadequate support for Part B premiums. The State agency requested that we
modify this language to exclude the dollar amount of $72.8 million and focus on the need for the
State agency and CMS to perform the reconciliation for the period reviewed.

The State agency said that our report does not discuss why electronic billing files could not be
acquired from CMS for the quarters ended December 31, 2007, and March 31, 2008. The State
agency added that without this documentation from its responsible division or from CMS, our
methodology could not be completed for two of the eight quarters reviewed. The State agency
agreed that the documentation it provided us was inadequate but stated that it believes that it has
the ability to regenerate files to materially tie back to the amounts reported on the CMS-64 for
each quarter during the review period. The State agency said that it would work with CMS to
reconcile these amounts and will adjust any subsequent quarterly Federal reports as directed by
CMS. The State agency also said that it had hired a third-party firm to review the processes
related to the Part B buy-in.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the finding related to the third recommendation, reporting the $72.8 million is
necessary to identify the unsupported amount that CMS and the State agency should work to


                                                 9
resolve. CMS maintains electronic billing files of Part B premiums billed for the previous
2 years. Because we requested data files from CMS in March 2010, CMS could not provide
data for the quarters ended December 31, 2007, and March 31, 2008. Pursuant to
42 CFR §§ 433.32(a) and (b) and the Medicaid Manual, the State agency is responsible for
maintaining sufficient documentation to support its claim, regardless of the availability of Part B
premium billing data from CMS. In addition, for the data obtained from CMS for the months
April 2008 through September 2009, the State agency could not identify which FMAP it applied
to each Part B premium. Nothing in the State agency’s comments caused us to revise our finding
or the related recommendation.

                              OTHER MATTER:
               MISSED STATE ADDITIONS OF ELIGIBLE INDIVIDUALS

Section 110 of the Buy-In Manual states:

       Buy-In coverage groups include all individuals eligible to enroll in Medicare who
       are receiving or are eligible for a category of assistance under Medicaid as
       specified in the State’s Buy-In Agreement or who are reported by the State to be a
       member of one of its coverage groups.

       The State must buy-in for everyone who is a member of a buy-in coverage group
       which the State has elected to include in its Buy-In Agreement.

Section 200.F. of the Buy-In Manual states: “The State is responsible for … [e]stablishing
internal procedures and systems to identify individuals eligible for buy-in, to communicate these
data to [CMS], and to respond to action taken by [CMS] on individual cases … and [t]he timely
payment of Medicare premiums on behalf of the individuals within its jurisdiction who are
eligible for State buy-in.”

The State agency did not always add individuals to the buy-in program when they became
eligible. During the billing months April 2008 through September 2009, the State agency
initiated retroactive additions covering 1 year or more for 294 individuals with Part B premiums
totaling $593,986. The premiums averaged $2,020 per individual during the periods covered by
these retroactive State additions. As a result, the State agency placed a potential financial burden
on eligible individuals, who had to pay their own Part B premiums for coverage until the State
agency added them to the buy-in program.




                                                10
APPENDIX
                                                                                                            Page 1 0[4


                   APPENDIX: STATE AGENCY COMMENTS


                                      STATE OF NEVADA 

                          DEPARTMENT OF HEALTH AND HUMAN SERVICES 

                                                                                           MICHAEL J . WILLDEN
                      DIVISION OF HEALTH CARE FINANCING AND POLICY                              Oi"C/or

                                1100 E. Wi lliam S treet, Suite 101
Brian Sandol/a!
                                   Carson City, Nevada 89701                                CHARLES DUARTE
  Governor                              (775) 684-3600                                         Ad",h';SIri1lor




   March 30, 2012

  Lori A. Ahlstrand 

  Regional Inspector General for Audit Services 

  U.S. Department of Health & Human Services 

  Office ofAudit Services 

  90 - 7'" Street, Suite 3-650 

  San Francisco, CA 94 103 


  RE: Audit Report A-09-11-02024

  Dear Ms. Ahlstrand:

  Per your request, the Nevada Department of Health and Human Services (DHHS) has 

  reviewed the draft audit report dated January 17, 20 12. The report addresses Nevada 

  improperly Claimed Federal Reimbursement for Medicare Part B Premiums on Behalf 0/ 

  Medicaid Ben~ficiaries for the quarters ended December 31, 2007, through September 30, 

  2009. The DHHS responses to the findings and recommendations in the report are as 

  follows: 


           A.     OIG Finding and Recommendation
           The State agency improperly claimed $179,096, which represented the Federal share of
           $336,005 in Part B premiums paid for indi giblc:: ind ividuals. The S,tate agency did not
           delete ineligible individuals fTom the buy-in program when it determined that they were
           ineligible or refund the Federal share of the Part B Premium s that it claimed for
           ineligible individuals.

           Department Re!JpolIse
           The Division ofHealth Care Financing and Policy (DHCFP) hired a third party firm 10
           work wilh DHCFP and the Division of Welfare and Supportive Services (DWSS) on a
           corrective action plan related to the above finding. DHCFP will work with eMS to
           adjust the appropriate quarterly Federal report to refund the amount ;dentffied above.

           B.      OIG Finding and Recommendation
           For $903, 161 in Part B premiums that the State agency claimed for public welfare
           additions, we judgmentally selected 18 of these additions and determined that the State
           agency claimed $24,898 ($15 ,795 Federal share) for 7 individuals who had been
           erroneously added. The State agency did not verify the eligibility of individuals added
           through the public welfare addition procedure or take corrective action on erroneous
           public welfare add itions. In addition, the State agency did not coordinate Witll SSA or
                                                                                                     Page 2 of 4




March 30, 2012
Page 2


     eMS Regional offices \0 establish procedures to reduce the number of erroneous public
     welfare additions. Because our judgmental selection identified unallowable claims for
     crronoous additions, it is likely some of the remaining claims are unallowable.
     Therefore, we have set aside $878,263 for resolution by eMS and the State agency.

     D epartm ellf RespOifSe
     The DHCFP hil"l!d {j third party firm 10 work with DlIeFP and Ifle DIVSS 011 a
     mrrec:/il'c action plan rdated to the abol'c fi nding. DHCFP will \l'ork wilh eMS to
     adj/JSllhe appropriate quarterly Federal report    10   refund Ihe amount idrmlified above.

     DHCFP will also work with eMS 10 verify thai the sel aside amount does 1101 contain
     any erroneous addilions. If any erroneous additions are identified. DHCFP will adjust
     any subsequent quarterly federaf reports as directed by eMs.

     C.     OIG Find ing lind Recomnlcndation
    For approximately $72.8 million of the Part B premiums claimed on the CMS-64, the
    State agency did not have adequate supporting documentation. The State agency could
    flOI provide documentation to support that the Part B premiums claimed were for
    eligible individuals and could not identify the Federal share claimed for those
    premiums.      Because the State agency could not providc adequate supporting
    documentation. we could not cletenninc whether the State agency's claims werc
    allowable. Therefore, we set aside approximately S72.8 million for resolution by eMS
    and the State agency.

    Departmellt Re~pollse
    DHCFP does l10t concur with Ihe lc:lI1guuge in thisjinding reported on pagefi\·e qflhe
    drafl report. An outside reader offhe report may belie\c that there is potentidfor fhe
    entire $72.8 million qf rotaf compuwb/e to be disallowed. DHCFP agrees that
    docllmentMioll pro\'ided (If the time ofthe review wa.l· /101 adequale 10 meet Ihe needs of
    the DIG reviewers. DHCFP has contracted with a third parly firm to rel!iew Ihe
    process af both DHCFP and DWSS related 10 Medicare Pari B Buy-In. Based our
    initial discussions. it appears thm documel1fillion call bl! gellel'aredfrom the DWSS {()
    re-creale the information al fhe time ofeach (filaria 10 mmerially recom:i1e back to Ihe
    flmOllnlS reported.

    On page eigfll of fhe draft report. il explains Ihal CMS was able 10 pmride elecfronic
    bilfingjiles Ihatthe Slate agency daimedji)r fhe quarters ended JUlie 30, 2008. through
    Septemher 30,2009. 71le repOri does 1101 discuss why the electrOllic billingjiles wlild
    not be acquiredfrom CMSfor Ihe quarfers ended December 31,2007. and March 31,
    2008_ The missing documentation for a porliml of Ihe n!l'iew period d();J~· IlOf appear 10
    ha\'f! been al·ajfable from diller the DHCFP or CMS,           Wi/houl Ihis data. the
    met/lOd% gy employed all pages four alld Jim (if Ihe dl'ilft report could nor be
    ,·ompleted/or /11'0 oflhe eighl quarlers under review.

     As staled earlier. DHCFP alld DWSS belie,'e fhey JllIl'e Ihe ahililY 10 regenerale Ji/es
    /i·om the pllb/h· welfare reporting sY.I·lem 10 malerla/~y tif! hack 10 Ihe amollllts reported
     011 Ihe CMS-64 for each quarter during IfIl' rl'l"iew period. DHCFP will work with CMS
                                                                                                   Page 3 of 4




March 30, 20 12
Page 3


     /0 reconcile Ihe FMAP for all quarters /0 the umaunl reported fill the CMS-64 Gild
     adjust any subsequent q/larrer/y federal reports as directed by eMS

     DHCFP respectju!(v requests Iha! the kmguage in Ihi.l' finding bl.: modified 10 exclude
     (he dollar amoun! flndfoeus on {he need for the Slale (.geney und eMS 10 perform the
     reconciliation/or Ihe period rCI'iewed.

     D.     DIG Recomm endation
     The State agency should delete ineligible individuals from the buy-in program when it
     determines that they arc ineligible and refund the Federal share of Part B premiums
     claimed for those individuals.

     Deparrml!lII Respon se
     The DHCFP hired a third party firm to work wilh DHCFP and the OWSS on a
     corree!i"1! a,;lion plall related 10 Ihe abov!! recummemiali(m. A.v part ofthe corrective
     action plall, policies will be established to captllre potential refllnds and retllm the
     Federal share of ineligible claims hack to eMS IhroUl5h rhe quarterly "cpaning
     process.

     E.     OIG Recommendation
     The State agcncy should verify the t:1igibility of individuals added to thc buy-in
     program through the public welfare addition procedure and take corrcctivc action on
     erroneous public weI rarc additions.

     Department Re.\p/IIl.\·e
     The DHCFP hired a third party firm to work with I)HCFP and Ihe DWSS ()n a
     corrective action plan related 10 Ihe above recommendation. As part (if the correclil'e
     aClion plan, policie~' will he established to capture 'Illy erronCOIIS public welfllre
     additions and refund Ihe Federal share oj ineliglblc clllims back to CMS through Ihe
     qllal"ler~1' reporting process.


     F.     O IG Rel:ommendation
     The State agency should coordinate wi th SSA and eMS regional offices to          cstabli~h
     procedures to reduce the number of erroneous puhlic welfare additions.

     Deparlm ellt Respollse
     The DHCFP hired a third party firm to work with DHCFP ([lid the DWSS UII ([
     correclil'e IIL"lion plall relaled to the abOI'e recommendation. As part oj the correcti),e
     action plan. poliCies will be established to document formal comnlUllications helll'eell
     DWSS and hoth SSA alld eMS regional ojJiC('S concaning addilion.~ 10 ensllre
     erroncmL\' public wc!jare additiOlls arc reduced.

     G.     OIG RCf.ommcndlliion
     The State agency should ensure that it can support Ihe Federal share for each Part 8
     premium.
                                                                                                 Page 4 0[4




March 30, 2012
Page 4


     Department Response
     The 	 DHCFP hired a third party firm to work with DHCFP and the DWSS on a
     corrective action plan related to the above recommendation. As part of the corrective
     action plan, a reconciliation process will be implemented to tie individuals on the eMS
     electronic billing files to the files maintained by DWSS. In addition, the reconciliation
     process will incorporate tying individuals based on eligibility to tlte corresponding
     FMAP rate and reconciling the total to th e amount reported 011 the quarterly CMS-64
     reports.

If you have any questions or comments please reel fTee to contact Leah Lamborn at 775 684­
3668 or LC Lamborn @dhcfu.nv.gov.

Sincerely,




Charles Duarte
Administrator



Cc: 	 Michael J. Willden, Director, Department of Health and Human Services
      Michael Torvinen, Deputy Director of Finance, DHHS
      Lynn Carrigan, Chief Financial Officer
      Diane Comeaux, Administrator, DWSS
      Leah Lamborn, Chiefof Accounting & Budget
